September 29, 2000

DONNA M. PEAK
ACTING VICE PRESIDENT, FINANCE, CONTROLLER

SUBJECT:	 Audit Report - Deviations from Postal Relocation Policy (Report Number
          FT-AR-00-005)

This report presents the results of our review of deviations from Postal Career Executive
Service Relocation Policy that were granted to postal executives. The Board of
Governors requested this work, and this report is the fourth in a series of reports
examining relocation benefits for Postal Service executives.

Our review disclosed that 11 relocation deviations were granted to allow employees to:
move closer to their new official duty station so that they could better fulfill their job
requirements; extend the time to complete the relocation process, or lease back their
former residence as temporary quarters. In our opinion, the deviations granted
appeared to be in accordance with postal relocation policy and in the best interest of the
Postal Service.

Since this report does not contain recommendations, formal comments are not required.
In addition, to assist the OIG in exercising its responsibilities under the FOIA, please
identify any portion(s) of this report, including a short justification for such assertion(s),
which you believe may contain proprietary or other business information that may be
exempt from disclosure under FOIA.

If you have any questions, please contact John Seeba, acting deputy assistant
inspector general, Business Operations, or me at (703) 248-2300.



Debra S. Ritt
Acting Assistant Inspector General
 for Business Operations

Attachment
cc: John M. Nolan
    Patrick R. Donahue
    Mary Anne Gibbons
    William T. Johnstone
    John R. Gunnels
Deviations From Postal Relocation Policy                            FT-AR-00-005



                                   TABLE OF CONTENTS

Part I 


Introduction 
                                                         1


   Background 
                                                        1

   Objective, Scope, and Methodology                                   1

   Prior Audit Coverage                                                2


Part II 


Audit Results                                                          3


   Deviations                                                          3





                                           Restricted Information
Deviations From Postal Relocation Policy                                                                FT-AR-00-005



                                             INTRODUCTION
    Background                      This report presents the results of our review of deviations
                                    from Postal Career Executive Service Relocation Policy that
                                    were granted to postal executives. The Board of Governors
                                    requested this work, and this report is the fourth in a series
                                    of reports1 examining relocation benefits for Postal Service
                                    executives. Based on a previous audit, we initiated a review
                                    of 11 additional deviations from postal relocation policy that
                                    were granted to postal executives2 during the period
                                    October 1997 to May 2000. Our relocation work is
                                    continuing and future reports will address other aspects of
                                    relocation benefits for Postal Career Executive Service
                                    managers.

                                    The Postal Service allows deviations from its relocation
                                    policy3 for items such as additional time in temporary
                                    quarters and moves of less than 50-miles. According to a
                                    Postal Service Corporate Accounting official, postal policy
                                    provides that a deviation can be granted when it is in the
                                    best interest of the Postal Service. In addition, Postal
                                    Career Executive Series postmasters qualify for relocation
                                    benefits (regardless of distances involved) as determined by
                                    the appropriate manager’s decision relative to community
                                    involvement requirements. Deviation requests must be sent
                                    to the manager, Corporate Accounting, for review and
                                    approval. Postal Career Executive Service managers must
                                    attach a recommendation from their supervisors to the
                                    deviation request memorandum.

    Objective, Scope, and Our objective was to determine whether deviations were in
    Methodology           accordance with postal policies and in the best interest of
                          the Postal Service. There were 413 Postal Career
                          Executive Service employees relocated between October
                          1996 and May 2000. To accomplish our objective we:

                                    •   Reviewed Postal Service relocation policies and
                                        procedures.

1
  The first report in this series was published on May 2, 2000, Relocation Benefits for Postal Service Officers (Report
Number FR-FA-00-010(R)). The second report was published on September 28, 2000, Miscellaneous Relocation
Expense Payment (Report Number FT-AR-00-001. The third report was published on September 29, 2000, Equity
Loss Payments, (Report Number FT-AR-00-004).
2
  One OIG executive was granted a deviation from the 50-mile rule. This employee received limited relocation
benefits that included (1) reimbursement of real estate expenses, (2) movement of household goods, and (3) storage
of household goods. Gross up benefits were not requested or authorized for this relocation.
3
  The Postal Career Executive Service Relocation Policy (Handbook F-11)




                                                          1
Deviations From Postal Relocation Policy	                                        FT-AR-00-005




                                •	 Reviewed supporting documents for 11 postal
                                   executives who received deviations from postal policies
                                   for relocation during October 1996 to May 2000.

                                This review was conducted from June through September
                                2000 in accordance with the generally accepted government
                                auditing standards and included such tests of internal
                                controls as were considered necessary under the
                                circumstances. We discussed our findings and conclusions
                                with appropriate management officials and included their
                                comments, where appropriate.

 Prior Audit Coverage 	 In May 2000, we issued Relocation Benefits for Postal
                        Service Officers, report number FR-RA-00-010(R),
                        concerning two postal executives that received deviations
                        from Postal Service relocation policy in order to relocate
                        within the local commuting area. We concluded that two
                        officers, who were promoted but did not change duty
                        stations, received relocation benefits of about $248,000 for
                        moves within the local commuting area. In addition, we
                        found that controls were not place to ensure that the Board
                        of Governors approved relocation benefits. Management
                        concurred with our recommendations.




                                                2
Deviations From Postal Relocation Policy	                                                  FT-AR-00-005



                                                AUDIT RESULTS
    Deviations	                      Our review disclosed that the relocation deviations were
                                     granted to allow employees to: move closer to their new
                                     official duty station so that they could better fulfill their job
                                     requirements; extend the time to complete the relocation
                                     process; or lease back their former residence as temporary
                                     quarters. We also noted that, unlike the two deviations we
                                     reported previously, all 11 deviations involved a change in
                                     official duty station. In our opinion, the deviations granted
                                     appeared to be in accordance with postal relocation policy
                                     and in the best interest of the Postal Service. The cost of
                                     these 11 relocations ranged from $13,993 to $105,278. The
                                     average cost of these relocations was $41,378.13. Table 1
                                     summarizes the types of deviations granted.

                                                                Table 1.
                                                             Deviation Type
                                                                                     Number of
                                                        Deviation                    Employees
                                     Relocated less than 50-miles                        9
                                     Rent-back of residence for temporary quarters       1
                                     Extension of time to relocate                       1
                                                                                       11

                                     •	 Nine of the deviations were granted from the relocation
                                        policy’s 50-mile requirement to allow employees to move
                                        closer to their new official duty station. For example, an
                                        employee on the west coast was reassigned to a new
                                        duty station. The distance between the employee’s old
                                        residence and new duty station was 55 miles, while the
                                        distance between the employee’s old residence and old
                                        duty station was 30 miles. Since the move was only
                                        25 miles, the employee did not qualify for relocation
                                        benefits. In this instance, a deviation from the 50-mile
                                        requirement was authorized based on the additional
                                        responsibilities of the employee’s new assignment, the
                                        need for the employee to reside near their duty station,
                                        and the additional time the employee would have to
                                        commute without the relocation. The letter authorizing
                                        the deviation also appropriately notified the employee
                                        that the relocation benefits would be considered taxable
                                        income since the move did not meet4 the 50-mile
                                        relocation requirement. The foregoing example is
4
    Per Internal Revenue Service regulations.




                                                        3
Deviations From Postal Relocation Policy	                                           FT-AR-00-005



                                    representative of the other eight deviations granted for
                                    relocations of less than 50 miles.

                                •	 Another deviation allowed an executive to lease back his
                                   old residence until his residence at the new official duty
                                   station was available. Postal officials concluded that this
                                   move was cost beneficial to the Postal Service since the
                                   employee was able to rent his former residence for less
                                   than what temporary quarters would cost at the new duty
                                   station. Further, the employee did not receive
                                   reimbursement for meals and incidental expenses while
                                   in temporary quarters.

                                •	 The final deviation granted an employee an additional
                                   year in which to complete his relocation. Accordingly,
                                   we believe that the deviation granted for relocation was
                                   reasonable.

                                The deviations reviewed in this report appeared to be in
                                accordance with postal relocation policy and in the best
                                interest of the Postal Service. Therefore, we do not offer
                                any recommendations.

                                Since this report does not contain recommendations, formal
                                comments are not required. If you have any questions,
                                please contact John Seeba, acting deputy assistant
                                inspector general, Business Operations, or me at (703) 248-
                                2300.




                                                 4
